<html>
<title> - GSA AND FEDERAL COURTHOUSES: MANAGEMENT, RENOVATION AND CONSTRUCTION ISSUES</title>
<body><pre>[Senate Hearing 112-917]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-917

 GSA AND FEDERAL COURTHOUSES: MANAGEMENT, RENOVATION AND CONSTRUCTION 
                                 ISSUES

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works




       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________


                    U.S. GOVERNMENT PUBLISHING OFFICE 

88-766 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 28, 2011
                           OPENING STATEMENTS

Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     1

                               WITNESSES

Brita, Susan, Deputy Administrator, U.S. General Services 
  Administration.................................................     4
    Prepared statement...........................................     7
Ponsor, Hon. Michael A., District Judge, U.S. District Court, 
  District of Massachusetts, on behalf of the Judicial Conference 
  of the United States...........................................    12
    Prepared statement...........................................    14
Rawling-Blake, Hon. Stephanie, Mayor, City of Baltimore..........    27
    Prepared statement...........................................    30
Motz, Hon. J. Frederick, Senior Judge, U.S. District Court for 
  the District of Maryland.......................................    32
    Prepared statement...........................................    36
Fowler, Kirby, President, Downtown Partnership of Baltimore, Inc.    45
    Prepared statement...........................................    47
Monk II, Charles O., Esq., Chair, Board of Directors, Greater 
  Baltimore Committee............................................    50
    Prepared statement...........................................    52

 
 GSA AND FEDERAL COURTHOUSES: MANAGEMENT, RENOVATION AND CONSTRUCTION 
                                 ISSUES

                              ----------                              


                        THURSDAY, APRIL 28, 2011

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                     Baltimore, MD.
    The committee met, pursuant to notice, at 2:01 p.m. in 
Courtroom 1-A, Edward A. Garmatz U.S. Courthouse, Baltimore, 
MD, Hon. Benjamin L. Cardin, presiding.
    Present: Senator Cardin.

OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, U.S. SENATOR FROM 
                     THE STATE OF MARYLAND

    Senator Cardin. Good afternoon, everyone, and welcome to 
the Federal courthouse here in Baltimore. This will be the 
opening of the Environment and Public Works Committee hearing 
and I want to thank Senator Boxer and Senator Inhofe, the 
chairperson and ranking member of the Environment and Public 
Works Committee, for allowing me to conduct this field hearing 
for the Environment and Public Works Committee dealing with our 
construction, renovation, and maintenance of our Federal 
courthouses.
    I want to acknowledge the staff from the Environment and 
Public Works Committee that are here, Alyson Cooke, Kathy 
Dedrick, William Henneberg, and Steve Chapman, representing the 
Environment and Public Works Committee, and Josh Klein of my 
staff, who is present. Today's hearing will be used by the 
Environment and Public Works Committee in our responsibility to 
oversight Federal courthouse construction, renovation, and 
maintenance.
    I want to thank our witnesses for being here, from the 
Federal agencies as well as those from Baltimore, including our 
Mayor, Stephanie Rawlings-Blake. It's a pleasure to have Your 
Honor here, and thank you for your participation today.
    In a May 2010 GAO report, the Government Accounting Office 
noted that in the 33 new courthouses that were constructed at 
the Federal level since 2000, 3.56 million square feet of 
unauthorized extra space was actually put in service. These 
facilities were both--the report was both critical of the 
General Services Administration as well as the Administrative 
Office of the U.S. Courts in the manner in which this 
additional space was put into service.
    It was based, according to the GAO report, on faulty 
assumptions. The assumptions were, quite frankly, that all of 
the vacancies in the Federal judiciary would be filled and the 
space would be needed. Now, I can tell you, serving in the U.S. 
Senate, that's not necessarily realistic assumptions, knowing 
that there are intentionally times where court positions are 
held unfilled.
    The cost of this unauthorized extra space amounted to $135 
million of knowledge increase and construction cost and $51 
million to operate and to maintain.
    So, starting in 2004, the Administrative Office of the 
Courts initiated some reforms in order to try to deal with some 
of these cost issues. At that time, they put the priority on 
the space needs more so than on the security or condition of 
the building. I'm going to come back to that point, because the 
two points I want to make from the beginning on dealing with 
the 2004--dealing with the May 2010 GAO report is: first, that 
it was expensive. Taxpayers money was spent that could have 
been spent in a more cost--efficient way. Second, it added to I 
think the wrong conclusion, the wrong conclusion being that we 
should put space needs ahead of adequate needs for our Federal 
bench. We're going to need to have to deal with that.
    I want to thank all of those who are at the Edward M. 
Garmatz Federal Building and Courthouse for allowing us to use 
this site for this field hearing. I particularly want to 
acknowledge Felicia Cannon, who's worked very closely with us 
in regards to the use of this courthouse.
    This courthouse was constructed in 1976 and it has the 
dubious distinction of being the cheapest square foot facility 
constructed of its type. I say that without much pride because 
as you travel through this building you'll see the deficiencies 
in this building. From day one there have been legitimate 
criticisms as to the adequacy of the Federal courthouse here in 
Baltimore.
    It has a poor relationship to the city itself. By that I 
mean is that when you design a building that's in an urban 
center it should be part of the city. Instead, this building 
was designed sort of as an island to itself and not 
incorporated well into the plans of Baltimore city.
    Second, from day one there was poor acoustics, poor 
lighting, awkward courthouse layouts, electrical system 
failures; the location of the holding cells is not where it 
should be; the location of the galleries is not where it should 
be. It's an environmental nightmare when you take a look at its 
energy consumptions. Since 1998 there have been 11 published 
reports of problems dealing with the HVAC, plumbing, and the 
electrical system.
    The safety of the building's design has also been called 
into question. It's similar to the Federal building that was 
constructed in Oklahoma City that was the subject of so much 
devastation as a result of an explosion. There is concern about 
blast concerns, if you get a blast, whether this building could 
in fact deal with those type of issues.
    The GSA report in 2003--and I'm going to quote from it--
said that: ``Our first impression report that describes the 
appearance of the Baltimore Federal courthouse as `anonymous 
and unrelenting,' with no identification of interior functions, 
not benefiting''--``befitting the dignity of a courthouse''--
all helped to elevate the Baltimore courthouse to the No. 1 
spot on the Administrative Office of the Courts 5-year 
courthouse plan for replacement.
    That 5-year plan, which was done in the early, around 2006, 
listed Baltimore for construction by 2008. The reason Baltimore 
was listed No. 1 is for these reasons. There were security 
issues as to whether the building was designed in a way that 
would provide the safety, not just of the judges and the staff, 
but the public who visit and use the Federal courthouse. There 
was also a concern as to whether the rooms were organized in an 
efficient way for the purposes of a Federal courthouse.
    But once Baltimore reached the top of the list, the rules 
changed. First, there was not enough money to start knowledge, 
so there was nothing being built during those years and there 
was a moratorium on new construction. So Baltimore stayed No. 1 
for a few years, but there was no activity at all done.
    Then the criteria used for what courthouses should be built 
was changed. As I noted earlier, there was a change in focus 
from dealing with having adequate space from the point of view 
of safety and design to whether there was sufficient space in 
square footage. When that was done, the Baltimore courthouse 
lost its preferred position and went from No. 1 to not being on 
the list at all for new construction.
    But Baltimore was in the worst possible position. During 
those years where it was felt that we were going to get a new 
courthouse here in Baltimore, the maintenance work was not 
done, the improvements were not done. Why put money into a 
building that was going to be replaced? So the conditions that 
existed here became even worse and no money was spent to really 
keep the building up to where it should have been.
    So Baltimore lost its position to get a new courthouse and 
Baltimore's courthouse became even in worse condition. It was 
clear that Baltimore--it's clear to me that Baltimore deserves 
a courthouse befitting the dignity of the Federal judiciary.
    Now, we have--I don't know if Josh has been showing you the 
pictures behind me. Maybe it would be a good time to show some 
of these, some of these photographs, that will show you the 
condition of some of the courtrooms here in the Baltimore 
courthouse. For those who are familiar with Federal 
courthouses, these are not the type of rooms that I think most 
Federal judges would consider to be adequate.
    We've also had significant water damage because of problems 
with pipe leakage here, that has caused some of the rooms not 
to be able to be used. The most recent was just a few months 
ago, which caused a major problem. It's my understanding now 
that there's a requirement to check all the lavatories before 
you leave to make sure they're set on the right setting or 
another flood in fact could occur.
    So there's a problem here. There's courtrooms that can't be 
used because of their design failure. There is heating and air 
conditioning issues. There is flooding issues, and there is 
just the concern of safety in the way that this building was 
designed and the need to either upgrade it through blast 
protection improvements, which would be very expensive, or to 
consider a new courthouse.
    Now, I think that safety issues should come first, not 
last. I think dignified space should be a requirement for a 
Federal bench. I believe we need a new courthouse here in 
Baltimore and I have strongly stated that in every forum that I 
can.
    But we cannot continue to allow this courthouse to remain 
in its current condition. That needs to be addressed. I hope 
our witnesses will be able to help us understand how we got to 
where we are today here in Baltimore and, more importantly, 
around the Nation and what we can do to make sure that the 
public has adequate courthouse space in order for the Federal 
judiciary to be able to perform its critical function for our 
government.
    One last point I want to point out as far as the courthouse 
is concerned. The Environment and Public Works Committee is 
also concerned, obviously, about our environment, about our 
energy policies. President Obama said in an executive order 
dated October 5, 2009, that ``To create a clean energy economy 
that will increase our Nation's prosperity, promote energy 
system, protect the interests of taxpayers, and safeguard the 
health of our environment, the Federal Government must lead by 
example.'' I'd be curious to get GSA's approach as to how this 
courthouse is leading by example, when we know the condition of 
its heating system. It's certainly not the type of energy 
efficiency that we would expect from a premier building dealing 
with our Federal courts.
    So for all these reasons, we look forward to the testimony 
of our witnesses. I really do want to thank our first panel for 
being here that represent the General Services Administration 
and the Federal bench. I want to thank both of you for your 
service to our country. I know both of you devote a lot of time 
to these issues, and sometimes it's difficult with the 
resources that are made available and the political needs 
around the Nation. So we very much appreciate you being here 
today.
    So our first panel consists of Hon. Susan Brita, is the 
Deputy Administrator of the U.S. General Services 
Administration (GSA). President Barack Obama named her Deputy 
Administrator of the U.S. GSA on February 2, 2010. As Deputy 
Administrator, Ms. Brita works closely with the members of the 
GSA leadership team to provide guidance to GSA employees, 
devise policy, and promote services to other Federal agencies, 
enabling them to best achieve their mission of service to the 
American people.
    A particular pleasure to have Hon. Michael Ponsor here, 
District Judge of the Massachusetts District of the United 
States, a judge appointed by President Bill Clinton in November 
1993 and confirmed by the Senate in February 1994. From 1984 to 
1994 he served as U.S. magistrate for the U.S. District of 
Massachusetts, and he's Chairman of the Judicial Conference of 
the United States Committee on Space and Facilities, which I 
take it makes you one of the least popular Federal judges in 
our system.
    [Laughter.]
    Senator Cardin. We'll start with Ms. Brita.

 STATEMENT OF SUSAN BRITA, DEPUTY ADMINISTRATOR, U.S. GENERAL 
                    SERVICES ADMINISTRATION

    Ms. Brita. Good afternoon, Senator Cardin, and thank you 
very much for inviting me to participate in today's hearing. I 
am here to discuss the U.S. General Services Administration's 
management, renovation, and construction of U.S. courthouses. 
The Federal courts play a critical role in the constitutional 
framework of American democracy. Courthouses are traditional 
landmarks that date back to the founding of the Nation and GSA 
is very proud to construct and modernize courthouses worthy of 
that role. We help the Judiciary carry out its mission by 
constructing courthouses that are economical, sound, and 
prestigious.
    The Edward A Garmatz Federal Building and United States 
Courthouse is a long-term core asset in GSA's inventory, but 
requires reinvestment to ensure continued efficient use and 
operation. GSA is developing a plan that balances this 
modernization need with investment needs of other buildings and 
courthouses in our inventory.
    As the Federal Government's landlord, GSA helps Federal 
agencies achieve their mission by constructing and renovating 
facilities that help them carry out their missions productively 
and efficiently. GSA has developed a strong partnership with 
the Administrative Office of the Courts by assisting them in 
achieving their mission of ensuring fair and impartial 
administration of justice by providing welcoming, safe, and 
functioning courthouses.
    GSA delivers high-quality buildings and courthouses that 
support the courts' unique needs while enhancing the buildings' 
surroundings. GSA selects construction and modernization 
projects by considering a variety of critical asset management 
factors. Particularly in this budget climate, GSA must 
carefully evaluate and select projects most in need of Federal 
funds. In selecting courthouse construction projects, GSA works 
closely with the courts and relies on its 5-year construction 
plan to prioritize new courthouse projects. This plan considers 
projected space needs, projected growth in judgeships, and 
security concerns.
    As funding permits, GSA incorporates the courthouse 
projects on this plan into our capital investment and leasing 
program for congressional authorization and appropriation. 
While the courts prioritize new construction projects, GSA 
determines which courthouses are priorities for repair and 
alteration, repair and alteration needs, by weighing our 
portfolio-wide reinvestment needs and existing opportunities.
    In selecting modernization projects, we consider a variety 
of components, including customer needs, building condition, 
energy efficiency, asset utilization, lease avoidance, and 
historic significance. If GSA determines a building is in need 
of a major modernization, the project will be included in a 
future GSA capital investment and leasing program. Until then, 
GSA will continue to perform minor repair and alteration 
projects so that our buildings remain safe and functional.
    The Garmatz Courthouse is a long-term core asset of GSA's 
inventory. In the last 5 years, GSA spent $5 million in 
building improvements, including repairing the mechanical 
systems, roof, facade, and interior spaces. Although the 
building is classified as a performing asset, further capital 
investment is still needed to ensure its operation and 
functions--it operates and functions efficiently.
    Although the construction of a new Baltimore courthouse is 
not on the courts' 5-year construction plan, GSA has identified 
the Garmatz Courthouse as needing modernization due to the 
building's current condition and reinvestment needs. The 
renovation, however, is dependent upon available funding and 
must be considered against the needs of GSA's other aging 
facilities.
    This concludes my opening statement, Senator Cardin, I am 
prepared to answer any questions you might have.
    [The prepared statement of Ms. Brita follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Cardin. Thank you very much.
    Judge Ponsor.

   STATEMENT OF HON. MICHAEL A. PONSOR, DISTRICT JUDGE, U.S. 
  DISTRICT COURT, DISTRICT OF MASSACHUSETTS, ON BEHALF OF THE 
            JUDICIAL CONFERENCE OF THE UNITED STATES

    Judge Ponsor. Yes. I want to again thank you, Senator, for 
having me here, and I would like to thank Mayor Rawlings-Blake. 
It's a special treat for me to be back here in Baltimore. My 
mother grew up in Baltimore and I have a soft place in my heart 
for Baltimore.
    I do come from the District of Massachusetts and I'd like 
to start with the disclaimer that the things that I said about 
Baltimore yesterday evening in the bottom half of the eighth 
inning were entirely off the record and in the privacy of my 
own home. It was bad enough that you broke our five-game 
winning streak the day before yesterday, but to stick it to us 
as badly as you did last night was especially painful.
    I have four quick points that I want to make. Point No. 1, 
Senator, you did make reference to the GAO report, which was 
very critical of the Judiciary. I just have to note for the 
record that I did appear twice before House subcommittees to 
testify about that report and the Judiciary very strongly 
contests the conclusions that were drawn in the GAO report 
about the waste of money. I think the report was badly done. I 
think it was grossly exaggerated and quite unfair to the 
Judiciary, but I don't want to spend too much time parsing that 
report, which I have done at length on other occasions. I just 
want to note we don't accept the GAO's findings on that.
    Point No. 2, I have to say a word of thanks to my friend 
Ms. Brita and to the GSA. They are in many ways a beleaguered 
administrative agency. They stand at an awkward crossroads 
between the Legislative, Judicial, and Executive Branches and 
have a difficult time keeping their balance with the sometimes 
inconsistent pressures that they face. They also are in a 
position of having to repeat the miracle of the loaves and 
fishes day after day as they try to distribute very limited 
resources among masses of demands, and they do that, it seems 
to me, sometimes with amazing poise. That's not to say that 
there aren't frustrations and I haven't had my own times when 
we've had to work hard to find our balance.
    Point No. 3, I think if there is anything that I could do 
today to clarify the background of this case, it would be to 
try to throw some light on the apparent heartbreak of being the 
No. 1 project for court construction and then finding yourself 
off the list. It is true that in fiscal year 2006, back in what 
has quickly become the ancient history of our courthouse 
programs, the Baltimore courthouse was No. 1. But that was our 
5-year plan covering a period from 2005 to 2009.
    Although Baltimore was the first project for 2006 at that 
time, there were projects ahead of Baltimore in line at that 
time in Los Angeles, El Paso, San Diego, Las Cruces, Savannah, 
San Jose, Buffalo, Fort Pierce, Jackson, Mobile, Norfolk, Salt 
Lake City, Rockford, Fort Lauderdale, Greensboro, Benton, Cedar 
Rapids, Nashville, and Sioux Falls. All those projects as of 
that 5-year plan were in fact in line ahead of the Baltimore 
courthouse, and that was as far up the line as a practical 
matter as Baltimore ever got on our 5-year plan.
    I should add that, of the courthouses that I've just named, 
a number of them dropped off the list during our subsequent 
planning phase. A few of them have been constructed and some of 
them are still to this very day awaiting funds and have not 
commenced construction or even broken ground, even though they 
were ahead of Baltimore at that time in our 2005 to 2009 5-year 
plan.
    So I certainly understand and respect the frustration that 
people from this district would feel about that, but Baltimore 
never got, as a matter of fact, quite as close as they might 
appear to have gotten.
    As you know from my written submission, we did entirely 
overhaul our assessment program for determining when new 
courthouses should be built, beginning in 2004. There was a 12-
year moratorium during which there was no new construction 
initiative while we took a look at how we were going to 
sequence the building of our courthouses.
    I have to say, when you said I was one of the most 
unpopular judges, it isn't quite that bad, but it certainly is 
true. I get phone calls almost every week. I get phone calls 
from Detroit, I get phone calls from Mobile, I get phone calls 
from Savannah. I get phone calls from all over the country 
saying: Judge Ponsor, can't you do something to help us get our 
courthouse construction program going? And it is heartbreaking 
sometimes.
    The security problems that other courthouses face truly 
make your blood run cold. I just collected a few examples of 
other courthouses which are ahead of Baltimore. The Macon 
courthouse in Georgia, there's no sally port, no secure sally 
port, as there is here. There is no independent circulation for 
judges, prisoners, and the public, as there is here. The judges 
and prisoners have to use a freight elevator together in that 
courthouse. The magistrate judge's chambers is located outside 
the courthouse and all the chambers are accessed by public 
corridors.
    The same problems exist in others: Huntsville, AL; 
Columbus, GA; Detroit, MI. All around the country there is a 
crying need for upgrades in security and it does put the 
Judiciary and the GSA in a very awkward position in trying to 
address these needs.
    We have evolved in our planning process and we are 
confident that we do it better now than we did before in 
handling these difficult challenges.
    That concludes my oral remarks and I'm happy to take 
questions.
    [The prepared statement of Judge Ponsor follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Cardin. Well, thank both of you for your testimony.
    Judge Ponsor, I think you may have made my point. The point 
that I was trying to make is that we should be paying attention 
to your existing inventory of space to make sure it's adequate 
before we're constructing new space. It seems to me that the 
judicial conference has taken a different view, that is 
construct new space before making sure that the existing space 
is adequate.
    I do want to point out for the record that Baltimore was 
ranked No. 1 in 2005 of the planning money which should have 
been in Fiscal Year 2006 as the No. 1 priority in the Nation 
for $30 million, and it was then ranked No. 1 for Fiscal Year 
2008 for $142 million for construction. I believe that was what 
the record shows.
    Judge Ponsor. Correct.
    Senator Cardin. So that of the entire construction budget 
for Fiscal Year 2008, Baltimore had the largest single project 
in dollar amount, as well as being No. 1.
    Judge Ponsor. That is correct.
    Senator Cardin. That's also, it looks like, for planning. 
We were also the largest single project in 2006, fiscal year 
2006, at $30 million for strictly the design. Austin, TX, was 
ranked eighth, but they were more money, but it also included 
construction.
    Then a lot of these projects were taken off the list 
because of the change in standard to go toward space rather 
than to the adequacy of the space.
    Judge Ponsor. That is correct, although I have to refine 
that a little bit. The No. 1 problem that we needed to address 
and that we continue to need to address in what is frankly now 
a completely stalled construction process--all of our projects 
for 2011--there is no money in the 2011 budget for new 
construction, zero. There is no money for new construction. All 
of our 2011 projects are now 2012 projects, and that is part of 
a trend that has been continuing to some extent for many years. 
Many projects are just moving along from one Fiscal Year to the 
other in exactly the same sequence.
    We have to take into consideration situations where there 
is simply not enough room in the building for the judges to do 
their work. It's like having an egg carton hat holds 12 eggs 
and you've suddenly got 15 eggs to put in the carton. There 
isn't enough room for the judges to actually sit down and hold 
court. Although there are other factors that are very 
important, when you've got that kind of a situation that has to 
be prioritized to some extent.
    Now, we never disregard security. We never disregard 
systems functioning. All those are factors that are considered. 
I know it's hard to say this, and one of the most difficult 
things about my position is to say to people, your security is 
good enough, knowing in the back of my head that any morning 
when I wake up I could be reading in the newspaper about some 
terrible tragedy. We lost a court security officer in Las Vegas 
just in this last year and a very brave deputy marshal was 
badly wounded. The security problems are very difficult.
    But when I have no secure sally port, when I have no 
independent corridors, when I have judges' chambers that are 
right off public corridors, when I have no lockups, and 
buildings where the people are riding elevators with the 
families and fellow gang members of people that they've just 
sentenced, those are situations that really concern us and are 
really a problem in many, many courthouses around the country.
    So we do consider security. We do consider systems 
functioning. But a high priority--and I have to be clear about 
this and I can't back away from it--is the question, is there 
enough space in the building to hold the people that have to 
work there.
    Senator Cardin. That's a fair question. But let me tell you 
the dilemma you're putting me in as a member of the U.S. 
Senate. Every year the Judicial Conference comes to us with 
requests for more judges. I am not going to support new judges 
unless I think there's adequate space for the existing judges. 
I think that's a fair position for a Senator to take.
    So if you can't answer the problems of Baltimore and other 
cities like Baltimore so that we have adequate space for our 
judges, then don't expect support from Maryland Senators for 
additional judgeships in other areas.
    Judge Ponsor. I understand that. All I can say, I think, in 
response is that I recognize the chicken and egg problem we 
have there. We would love to build you a new courthouse in 
Baltimore. I love Baltimore. I would love to give you a new 
courthouse in Baltimore. Give me the money. I feel like, show 
me the money.
    Senator Cardin. Well, we might be able to do that. I 
understand the problem. I understand the problem with the 
Federal budget. Believe me, I do. I serve also on the Senate 
Finance Committee and the Senate Budget Committee, so I know 
the problems we're going to be confronting. We have a debt 
ceiling limit crisis that's looming in the next 2 months. So I 
understand that.
    So we've got to find creative ways. That's why we have a 
second panel here today, because there are interest groups here 
in Baltimore that would like to do something about that. So we 
might be able to find partners. But it will require the Federal 
Government and the Administrative Office of the Courts perhaps 
to use some different standards if we're going to be able to 
find creative ways to move forward.
    Judge Ponsor. I would be very happy to enter into any type 
of conversation along those lines to try to solve that problem, 
because that's really a problem that we share.
    Ms. Brita's written remarks indicated that the GSA is 
trying to handle their upgrades and building maintenance 
challenges with a budget that's been cut by 80 percent. I'm 
sure that--I don't want to speak for the GSA, but they would 
love to come in here and take this building and just turn it 
upside down and make it into the sort of facility that the city 
deserves, that the people that come to the building deserve to 
work in.
    But again, it's a problem of the need is there, but often 
the cupboard is bare and there are other challenges that we 
have to balance out in that environment.
    Senator Cardin. Ms. Brita, the reason I started with the 
GAO report--and I understand you take exception to the GAO 
report. You wouldn't be the first Federal Agency that took 
exception to the Government Accounting Office findings. But it 
says that GSA lacked sufficient oversight and control to ensure 
that courthouses were planned and built according to authorized 
size. That's a pretty strong statement in the report.
    We are talking about extremely difficult resources today. 
If GSA is right--I mean, if GAO is right and there is close to 
a trillion dollars spent that could have been used--a billion 
dollars spent that could have been used for other purposes, we 
could have found some money perhaps for Baltimore and other 
courthouses to renovate.
    During the recovery, when we had a trillion dollars, I 
think, was made available to our Federal courts, Baltimore 
didn't get--was it a billion dollars? A billion dollars made 
available, excuse me; $1.5 billion. $1.5 billion made available 
for the Federal courts. It's my understanding Baltimore didn't 
get any of that money.
    So we've had some money available, but it hasn't been made 
available to Baltimore. Can you help me understand this a 
little bit better?
    Ms. Brita. Let me address the GAO report first, Senator 
Cardin. We did, the agency, GSA, did take great exception to 
many of the findings in the report. But we do take very 
seriously a charge that we did not have proper management or 
oversight over the program. There have been changes or 
modifications that we have put into the program to make sure 
that there is a double level of review now to address what GAO 
characterized as overbuilding.
    On the issue of the recovery money, Senator Cardin, when we 
got the recovery money--and we fought very hard to get recovery 
money for the built environment, to make sure that GSA did get 
some money to address its backlog--we set up a series, along 
with Congress, of criteria on how to use the money. We worked 
with the House Transportation Committee and the Senate 
Environment and Public Works Committee.
    The first criteria was to make sure that the money that was 
spent went toward projects that could be high performance green 
building projects. The second criteria was to make sure we 
could get the money obligated and into--as you remember, this 
was a jobs bill--to get the money obligated into the economy 
within 2 years. Then the third criteria was to make sure that 
we weren't entering into any very risky projects.
    The Garmatz Building did receive a teeny, tiny bit of 
money, I think it was a couple of million dollars, to do I 
think some lighting improvements in the building. But as far as 
the major criteria was concerned, the building just did not 
rise, in comparison to the other needs that we had and the 
amount of money that we had, it didn't make the final cut. We 
have a list that we can certainly share with your staff if they 
don't already have it, about the buildings that we did invest 
money in.
    As I say, the major component was making sure they were 
high performance green building projects, then we could get it 
done in time, and then that they weren't risky, we weren't 
entering into something that we couldn't complete or we would 
end up getting sued over.
    So the Garmatz Building relative to other buildings and 
other needs that we had didn't rise to the occasion.
    Senator Cardin. Well, I will take a look at those figures. 
What it seems to me again, Baltimore's being penalized. The 
fact that the building is so energy--inefficient, that it would 
take a significant amount of investment and you're not going to 
get--I mean, it's going to take a lot to put into this building 
to make it anywhere near where it should be on energy issues, I 
can see the cost-benefit returns not being as high as other 
buildings.
    But there comes a point where you have to make some 
decisions, whether you're going to either fix this building or 
demolish it. It seems to me you then tell me, well, we don't 
have any money to do it. But we had a pot of money, but you let 
that train go by, where we could have had some money to deal 
with the courthouse.
    You've got to have a plan for Baltimore here, one way or 
the other. It seems to me that you can't just keep on saying 
you don't have resources when we give you significant resources 
and then none of them are used.
    Ms. Brita. Well, Senator Cardin, we do--we do consider the 
Garmatz Building as a long-term core asset of the GSA 
inventory. So we are committed to the building. We have to 
match that commitment with, as the Judge has said, very limited 
resources.
    We have put money into the building. We do have a plan, if 
we get resources, to invest in the building, and we match those 
resources with other competing needs. But we have not--we have 
not foregone or forgotten the Garmatz Building. As I said, it 
is a long-term core asset. It's one of the major assets in our 
inventory and we consider it that. We will invest in the 
building.
    Senator Cardin. Help me to understand your rating system on 
the conditions of the building. Do you put any interest in 
whether the building is structurally sound when you talk about 
the exterior envelope and structure? When you rate a building 
as far as its exterior envelope and structure, do you put any 
weight on the integrity of the building to withstand a blast?
    Ms. Brita. Yes. When we do a building engineering report, 
we take into account all aspects of the building.
    Senator Cardin. Blast protection is certainly an issue as 
relates to a Federal courthouse?
    Ms. Brita. Absolutely.
    Senator Cardin. This building is not set back, as you would 
have a building built today, correct?
    Ms. Brita. Correct. It was built in 1977, before the 
standards were put in place, before the design excellence 
program was established. Yes, it was built prior to all of 
that.
    Senator Cardin. It doesn't have blast windows, as I 
understand it?
    Ms. Brita. It does not.
    Senator Cardin. So is this building adequate from the point 
of view of blast protection?
    Ms. Brita. Against new construction, it is not. But for 
buildings that are existing buildings and built in 1977, it 
meets the safety standards for that. If we had money, that 
certainly would be one of the items that would be on our list 
that we would consider for the building, the progressive 
collapse.
    Senator Cardin. Let me just point out, the world has 
changed since 1976.
    Ms. Brita. I know.
    Senator Cardin. The threat issues are a lot different 
today. Embassies that were safe in 1976 are closed today 
because they represent threats. You have a building that is 
structurally designed in a way that's different than you would 
a Federal courthouse today because of, as I understand it, the 
pancaking problem.
    Now, you can retrofit the building. All it takes is, what, 
$20 million, $30 million, $40 million, $50 million? Is that 
what we're going to do in Baltimore?
    Ms. Brita. If we get resources, certainly the issue of the 
blast-resistant windows and progressive collapse would be the 
top of the list, the very top of the list of where we would be 
looking to modernize the building. But it all depends on the 
amount of resources that we get. Senator Cardin, our repair and 
alteration budget this year was cut by 80 percent, and we have 
no idea of what we're going to get next year.
    Senator Cardin. Well, where I take exception for you, it 
seems to me what you're saying when you say that the condition 
of the exterior envelope and structure is good, you're basing 
it on 1976 construction.
    Ms. Brita. For buildings that were built in 1976, it met 
the standard for that. If we were doing new construction today, 
we would do it_you're right, we would do it differently.
    Senator Cardin. Why do you rank the building condition 
good?
    Ms. Brita. Because, compared to----
    Senator Cardin. What would be poor?
    Ms. Brita. Not this building. I would have to find a 
building that--I'd have to go into the inventory and find a 
building that would be rated poor. But we don't rate--the 
rating is not just contingent on the exterior envelope.
    There are many, many, many criteria that we use to put our 
buildings in the various tiers that we put them in: 
functionality, return on investment, location, historic 
significance. There are many, many criteria that we use to put 
our buildings in category 1, 2, 3, or 4.
    Senator Cardin. The building engineer report determined the 
building to be in fair condition, based upon the continuing 
deterioration of the domestic water branch piping system and 
the age of the building's electrical and HVAC systems, none of 
which have been upgraded since the building construction in 
1976.
    Now, could you tell--are you familiar with the flooding 
problems that have taken place in this courthouse?
    Ms. Brita. I've heard about the several water leaks they've 
had, yes.
    Senator Cardin. I'm just wondering what a poor construction 
building would look, a poor condition building would look like, 
if Baltimore doesn't make the ``poor'' category or deficient. 
There's rooms that can't be used. I just am curious as to your 
rating system, whether you really are in fact using a 
realistic--we depend upon you to give us realistic evaluations. 
I understand it's my responsibility to appropriate the money. 
You can't spend the money if you don't get it from Congress. 
That's our responsibility, and you're not getting enough 
resources. I understand that.
    But if you don't give us help as to what you need, then I 
think you're culpable for the problems we're having, for not 
advising us what you need.
    Ms. Brita. Senator Cardin, on the security issue_could I go 
back there for a second? On the security issue, on courthouses 
we work very closely with the courts, as Judge Ponsor said, to 
look at overall security issues for the courts. The courts are 
very concerned about, obviously, security in Federal courts. 
Interior circulation is a huge issue for them, as well as the 
sally port.
    In that regard, on those two criteria alone, this building 
meets the standard. It has a secure sally port and it has three 
interior circulation patterns. So for interior--for the 
purposes of the courts, we have met the security criteria for 
the courts, because when we construct for them that__
    Senator Cardin. Your security issue is only concerning with 
defendants?
    Ms. Brita. No, I'm talking about the interior. For the 
tenants' point of view, from the tenants' point of view, we 
have met their security criteria. Then we add onto that things 
that you consider__
    Senator Cardin. I'm a little confused. The two issues you 
raise deal, as I understand it, deal with prisoners?
    Ms. Brita. Every court, every Federal courthouse, should 
have three interior circulation patterns, one for prisoners, 
one for the public, and one for the judges. In the case of the 
Garmatz Building, that is the case. There are three interior 
circulation patterns in this building.
    Senator Cardin. That's your security concern?
    Ms. Brita. No, I'm saying that's what the courts want to 
have. When we build a building for them, that is one of their 
requirements.
    Senator Cardin. So there's not a concern about terrorists 
or blasts?
    Ms. Brita. No, there is. I'm just talking about, as we 
build into it, this is how we build into it. So we try to build 
a building that meets their needs for the three interior 
circulation patterns. Then we have the U.S. Marshals, of 
course, want to have a secure sally port. So that's built into 
the plan, too. Then on top of that we add the issues that 
you're talking about, the progressive collapse, the blast-proof 
windows, because that's a government-wide requirement. Those 
are the things if we were building today we would incorporate 
into an overall building plan.
    But from the tenants' point of view, we start with them: 
What do you really need in the building? This is standard 
throughout all Federal courthouses: three circulation patterns 
at a minimum, the secure sally port at a minimum. Then we add 
to that things like blast-proof, setbacks, progressive 
collapse.
    Senator Cardin. Also point out, functioning toilets that 
don't overflow might be an issue. We've had lots of riots at 
our baseball stadiums when the toilets don't operate. I can see 
the same situation. I don't mean to make fun of this, but to me 
it's outrageous that we have to have people check the toilets 
at the end of the day to make sure they're set right.
    Judge Ponsor. Perhaps I could just chime in for a second. I 
was just looking at our list, of course, that we've done our 
asset management planning for. Just to give you a snapshot of 
the inventory that we're looking at, the Macon, GA, building 
was built in 1905. The Marquette, MI, building was built in 
1936. The Benton, IL, building was built in 1959. The Paducah, 
KY, building was built in 1938. The Bob Casey Courthouse in 
Houston was built in 1962. The Columbus, GA, Robert Elliott 
Building was built in 1934. The Lexington, KY, building was 
built in 1934. The New Haven courthouse was built in 1919. The 
Port Huron, MI, building was built in 1877. The Everett Dirksen 
Building in Chicago was built in 1964.
    I've just gone down a list, almost every single courthouse, 
for none of which right now I have new courthouses in line, 
were all built before 1976 and hardly any of them would qualify 
security-wise in terms of progressive collapse or any of the 
things that you're concerned about. That's what we're wrestling 
with.
    Senator Cardin. Judge, sight unseen I would take a building 
built 100 years ago or 75 years ago or 60 years ago, other than 
one built in the 1970s.
    Judge Ponsor. Fair enough. Fair enough.
    [Laughter.]
    Senator Cardin. At what point do you come to the conclusion 
that you just are throwing good money after bad, that it just 
doesn't pay to try to fix a building, but to replace it? Do you 
ever come to those conclusions?
    Judge Ponsor. It's hard. Let me just give you an example. 
We were building a new courthouse in Springfield. We were 
having budget problems. We designed a green system for our 
HVAC. We ran into budget problems, and I can tell you--might 
not happen now because the rules have changed, but they hadn't 
changed at that time--the first thing that went out the window 
was the green building, the green HVAC system, because it 
demanded an immediate up-front investment of several million 
dollars, that would be earned back over the next 20 years.
    That's the kind of balance that we're having to strike all 
the time. I had the pleasure of reading Judge Motz's written 
comments and he talks about penny wise and pound foolish. 
You'll be hearing from him about that. I think his point is 
exactly correct. But when you don't have pounds and you can 
only spend pennies, these kinds of tradeoffs happen, 
unfortunately. They shouldn't happen, and we should do 
everything we can to prevent them from happening. But 
unfortunately, sometimes they're inevitable, and that's the 
difficulty.
    Senator Cardin. I agree with your comments. I just point 
out there was money available from the recovery funds, and to 
me that was a missed opportunity.
    Judge Ponsor. I can't unweave that one.
    Senator Cardin. Let me thank both of you very much for your 
testimony.
    Judge Ponsor. Thank you, Senator.
    Senator Cardin. I thank you both for your service. I know 
that, working at GSA, you have an outstanding reputation and I 
very much appreciate trying to do what Congress wants you to do 
when there's such a different view around the Nation; I 
appreciate it very much, Ms. Brita.
    As I said to you, Judge Ponsor, it's a tough job to be a 
judge, but then taking on this responsibility in addition to 
it, God bless you. Thank you very much.
    Judge Ponsor. It has good sides to it.
    I'd like to be excused perhaps to leave a little bit early 
before the hearing's over so I can get back to the airport.
    Senator Cardin. Absolutely.
    Judge Ponsor. I'll be here for a while, but you might see 
me slip away.
    Senator Cardin. Absolutely. Thank you very much.
    Judge Ponsor. Thank you, sir.
    Senator Cardin. We'll now turn to our second panel, which 
will consist of Baltimore Mayor Stephanie Rawlings-Blake, who 
was sworn in as Baltimore's 49th Mayor on February 4, 2010. She 
had served as City Council president since November 2007. Mayor 
Rawlings-Blake was first elected to the Baltimore City Council 
in 1995 at the age of 25 as the youngest person ever elected to 
the City Council. She's aged ever since being Mayor, and she 
does an outstanding job as the Mayor of Baltimore. We're very 
proud of her leadership and her vision for Baltimore.
    We also have Hon. J. Frederick Motz, who is a U.S. District 
Court Judge for the District of Maryland. Judge Motz has served 
on the Baltimore bench since 1985, when he was nominated by 
President Ronald Reagan. Judge Motz served as the Maryland 
District's chief judge from 1994 to 2001.
    Kirby Fowler is the president of the Baltimore Downtown 
Partnership and executive director of the Downtown Management 
Authority. Prior to joining the Downtown Partnership, he served 
as special assistant for Economic and Neighborhood Development 
under Mayor Martin O'Malley. In that position he worked on such 
projects as the Brown Center at the Maryland Institute College 
of Art and the renaissance of Belvedere Square, where I had one 
of my first offices as a Member of Congress.
    Charles O. Monk II is the board chairman of the Greater 
Baltimore Committee and a managing partner at Saul Ewing in 
Baltimore. He concentrates his practice in significant 
litigation matters, including business disputes, intellectual 
property, insolvency, antitrust and security litigation. For 
more than 5 decades, the Greater Baltimore Committee has 
focused the resources of its board membership on the key issues 
relating to the business climate and quality of life in the 
greater Baltimore region.
    We welcome all four of you to the committee. Your full 
statements will be made part of the record and you may proceed 
as you wish. Start with Mayor Rawlings-Blake.

  STATEMENT OF HON. STEPHANIE RAWLINGS-BLAKE, MAYOR, CITY OF 
                           BALTIMORE

    Mayor Rawlings-Blake. Thank you very much, Senator Cardin, 
first for inviting me to testify before the committee. As 
Mayor, I welcome, not you, but the staff that is here with the 
committee to Baltimore. I was pleased to hear Judge Ponsor's 
Baltimore connection. Maybe that will loosen the purse strings 
a little and find that money for his dear mother's sake.
    So this is the second time in the past month that I've had 
the pleasure to testify before a congressional committee here 
in Baltimore, and I think it's very beneficial to have these 
hearings, these field hearings, so you can see and hear what's 
happening on the ground outside of the confines of Washington, 
DC.
    I'm here today to talk about Baltimore's Federal 
courthouse, specifically the great need for a new building, as 
well as the role it would be playing or it should be playing in 
Baltimore's economic development plans. This courthouse was 
built decades before any modern safety and security design 
standards for Federal buildings were established, and we just 
talked about that. Lessons learned from Oklahoma City, from 9-
11, need to be incorporated in the building design and 
function, including structural engineering that allows for 
progressive collapse, as you mentioned, sufficient security 
setbacks from neighboring streets, courthouse design that keeps 
the defendants separate from juries, witnesses, and attorneys.
    Infrastructure in the present courthouse is failing, as 
your pictures illustrated. Judges, marshals, lawyers, and 
support staff are forced to work in precarious environments 
with frequent plumbing mishaps, electrical failures, and lack 
of access to technological improvements.
    Baltimore deserves and wants a first-class Federal 
courthouse. It is my understanding that Baltimore City, as you 
mentioned, has been on the list before and no action has been 
taken by the GSA. Plans for construction of a new courthouse 
are no further along than when we first made the list. Major 
improvements are needed for safety, security, energy savings, 
and infrastructure. They need to be made. You've already 
expressed very eloquently how we are in a very poor position 
because the repairs weren't done in anticipation of a new 
building and it really put us behind the eightball.
    This courthouse is the center of Baltimore's prominent 
legal community and the city where both the State's law schools 
are located. It's important that we have a significant 
courthouse in Baltimore City. The Federal judiciary in 
Baltimore has a long tradition in U.S. admiralty law stemming 
from the Port of Baltimore's centuries-old role and 
international impact and export hub for the Nation. In recent 
years, the Baltimore courthouse has hosted important mutual 
fund investment litigation, high-profile gang trials, in 2002 
the famous proceedings in the Microsoft antitrust case, and in 
2010 more than 2700 civil and criminal cases were placed on the 
docket at the Baltimore courthouse.
    Furthermore, for the last several years I've lauded the 
U.S. Attorney's work on Project Exile prosecutions right here. 
This is a great program and I have a vested interest in making 
sure that the infrastructure is present to get the most violent 
offenders off of our streets.
    Federal courthouses also define the status of the towns and 
cities where they're located. Millions of commuters, residents 
and tourists walk past this building every year. What they walk 
past now is a building that's unwelcoming and anonymous, with 
its Pratt Street facade. Most passers-by will hardly notice the 
entry-less back of the building facing Pratt Street, one of the 
city's busiest streets. Nor will they wonder who owns the 
building, what work goes on inside, and what purpose it serves. 
The awkward alignment of the building makes it easy to overlook 
the solitary statue on Pratt Street lawn that honors 
Baltimore's native son and one of our Nation's greatest legal 
minds, Supreme Court Justice Thurgood Marshall.
    By contrast, the previous Federal courthouse, built in 
1932, has been recycled, first as Baltimore's central post 
office and now as part of the State circuit court system. The 
structure was renovated by the State in 1990 and remains part 
of downtown's landscape and its legal community. We are 
realizing the ancillary benefits of that structure, but not of 
this current courthouse.
    I convened the Downtown Task Force and just recently issued 
a report that outlines strategies for strengthening Baltimore's 
downtown. That vision includes, that the task force laid out, 
includes business, a diverse population of residents, hotels, 
thriving retail and restaurants, and expanding anchor 
institutions. There would be no greater anchor institution than 
a new Federal courthouse.
    Where we sit now is a gateway to the west side 
redevelopment. A development project known as the 
``Superblock'' is planned just a few blocks from here. I'm 
committed to seeing the revitalization of the west side and the 
Superblock and all of the benefits that it will offer to our 
city. A new courthouse in this vicinity would be a hub for the 
west side and for Baltimore City as a whole. This means jobs, 
construction, commerce, as well as a host of other economic and 
social benefits that will permeate as a result of this 
development.
    My motto has been ``Better Schools, Safer Streets, and 
Stronger Neighborhoods,'' and I believe that a Federal 
courthouse can help promote all of those things. I urge the GSA 
and the Administrative Office of the U.S. Courts to consider 
plans to build a new Federal courthouse in downtown Baltimore. 
My office, the legal community, and downtown business leaders 
stand ready to work with the GSA to move forward with plans to 
improve the Baltimore Federal courthouse.
    Again, Senator, I thank you for the opportunity to testify.
    [The prepared statement of Mayor Rawlings-Blake follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Cardin. Thank you very much, Madam Mayor.
    Judge Motz.

    STATEMENT OF HON. J. FREDERICK MOTZ, SENIOR JUDGE, U.S. 
          DISTRICT COURT FOR THE DISTRICT OF MARYLAND

    Judge Motz. Yes, thank you, Senator. As you've mentioned, 
I've been a judge since 1985 and I was the chief judge and 
that's the reason I'm here today. Chief Judge Chasanow and my 
colleagues thought that I know pretty much the most about the 
building of anybody here.
    I will outline in a moment--as I will outline, we in 
Baltimore are actually grateful to GSA and the Space and 
Facilities Division of the Administrative Office for helping us 
to make improved improvements to the courthouse. That said, I 
am well aware that GSA has shortcomings. I'd be the first to 
say that efficiency does not always seem to be its goal.
    Further, government agencies are immune from the 
disciplining effect of market forces. For example, as has been 
mentioned several times, we have experienced some very bad 
floods caused by faulty plumbing in recent years, and if we 
were in a private building we could withhold our rent or at 
least threaten to withhold our rent until the building was made 
habitable. That option is not now open to us. It is therefore 
quite important that public hearings such as this be held to 
provide the accountability that the market would otherwise 
enforce.
    But I'm not here today to vent our frustration at the 
obstacles that sometimes have been placed in our way, but to 
address an issue of vital public importance: assuring that this 
courthouse either is replaced or that capital improvements are 
made to it so that it remains economically viable for the next 
25, 30, 50 years.
    Senator Cardin my colleagues are extremely grateful for the 
efforts you have made and continue to make to have a new 
Federal courthouse constructed. However, I, like you, have 
serious doubts that this goal can be accomplished in the 
foreseeable future. Judicial Conference priorities aside, about 
which you heard, three conditions would have to be fulfilled 
before a new Federal courthouse could be built here in 
Baltimore.
    First, sound urban planning requires that a site for the 
new courthouse in the downtown area would have to be found to 
maintain the vitality of the downtown district. Second, in 
order to prevent disruption of the administration of justice in 
the Federal courts, the new courthouse would have to be 
completed before the present courthouse is vacated, sort of 
like a baseball stadium or a football stadium. Third, funding 
would have to be found to assure that the land on which the 
present courthouse now sits is put to good use. It is highly 
questionable in my judgment whether the first two of these 
conditions can be met.
    Moreover, I must say from an aesthetic standpoint the 
present courthouse is entirely adequate. Of course, when the 
courthouse was first built it was not well received by my 
predecessors. The Sugarman sculpture, which particularly 
aggravated the judges, was located immediately in front of the 
office wing of the building. It made the courthouse look like a 
playground, and it became a metaphor for the judges' 
discontent. On the inside of the building, the courtrooms, 
which were initially only on the fifth and seventh floors, were 
objectionable. Their light wood, wavy ceilings, and ultra-
modern furniture did not convey the sense of dignity that the 
public rightly expects a forum for judicial proceedings to 
have. This courtroom itself had all of the dignity of a tennis 
barn.
    When the court grew larger in the early 1980s, four new 
courtrooms and chambers were added on the third floor. Although 
the wood that was used was darker, the construction was quite 
cheap, as even an unskilled observer could see. Thus the 
courthouse remained for a decade or so.
    In the 1990s, however, things dramatically changed. The 
exterior of the building was refinished, the landscaping near 
the entrance was added, the statue of Justice Thurgood Marshall 
on Pratt Street, which the Mayor just mentioned, was remounted. 
Numerous courtrooms, including this one, and chambers were 
reconstructed in an appropriate style with advanced electronic 
technology. A conference room on the first floor was renovated. 
The space on the second floor was reconfigured and rebuilt, and 
a new conference room and attorney's lounge were constructed.
    The Sugarman statue itself was temporarily removed to be 
repainted. When it was returned, it was placed, not next to the 
courthouse, but at the corner of Lombard and Hanover Streets, 
where it is now located. There it adds in my judgment much-
needed color to what has become a vehicular thoroughfare, and 
what I consider to be its essential message--the bringing of 
the chaos of life into the constraints of ordered liberty--is 
far better expressed when it is near, but apart from, the 
courthouse.
    Additional improvements have been made in recent years. Two 
courtrooms on the seventh floor have been renovated. Just last 
week, a truly magnificent exhibit about admiralty law was 
established in the public corridor on the third floor of this 
courthouse, and I hope that after this hearing some of you will 
come to take a look at it. It is the first of what we 
anticipate will be a series of historical exhibits on various 
themes that are woven into the tapestry of Federal law, 
including civil rights and civil disobedience, the Civil War, 
professional sports, and the Chesapeake Bay.
    This brings me to my main point. All of the fine aesthetic 
improvements that have been made in recent years will have been 
for naught unless substantial capital improvements are made to 
the courthouse. It can be replaced; that's fine. But if not, we 
need substantial capital improvements.
    The courthouse is over 30 years old. Even if it had been 
well constructed, the infrastructure would now have to be 
replaced. But as engineering studies commissioned by GSA itself 
attest, this building was not well constructed. There are 
serious security concerns presented by the design of the 
building and it would be totally irresponsible in my judgment, 
particularly after today when public attention has been brought 
upon these deficiencies, it would be totally irresponsible not 
to take the steps necessary to address these concerns 
immediately.
    Further, the floods that we have experienced and that have 
caused substantial disruption to the court's work and 
significant expense to repair, demonstrate beyond dispute that 
piping and electrical and plumbing fixtures_excuse me_that 
piping and plumbing fixtures must be replaced. The building's 
heating and air conditioning and electrical units now operate 
by ingenious jerry-rigging that cannot provide a long-term 
solution. Likewise, the ductwork that was originally installed 
was inadequate in many respects. Indeed, there were places 
where, because of construction designs_excuse me_design 
failures or construction shortcuts, ducts come to an abrupt 
end, instead of of continuing to provide heat and air to places 
where they should be providing it.
    On top of all of this, in the near future we will need more 
space. I have outlined that in my written testimony and won't 
say anything more about it now.
    Now, my plea today is that GSA and the Administrative 
Office find or the Congress specifically authorize sufficient 
funding in the next budget year to undertake the very 
important, but very costly, projects that need to be undertaken 
to maintain this courthouse. These projects include a complete 
revamping of the plumbing and HVAC systems and the electrical 
system, curing the security issues, and providing full funding 
for the construction of additional chambers and one new 
magistrate judge courtroom. If the cost is not prohibitive, the 
greening of the courthouse by adding gardens, and perhaps an 
area for receptions, on the roof would be desirable.
    As a citizen of Baltimore, I also hope that funding can be 
found for what has become known as the ``First Impressions'' 
project, which was approved by GSA some years ago. This project 
would make the entrance to the courthouse face on Pratt rather 
than on Lombard Street. The reason this is important is exactly 
as was expressed by the Mayor. If we don't get a new 
courthouse, it is important that as people walk up and down the 
streets from the stadiums to the Inner Harbor that this 
building be much more welcoming to them.
    I might note that an incidental but important benefit of 
completion of that project would be that the statue of Justice 
Marshall would be standing in the front and not in the rear of 
the courthouse. While symbolic, that change would be of 
monumental significance.
    I have heard suggestions that the various needed 
improvements--and I have heard this from time to time_be done 
piecemeal over time. I respectfully suggest that_that's where I 
use the term that it would be penny wise but pound foolish. It 
makes no sense to do these things seriatim over time. Can you 
imagine a responsible private property owner tearing out walls 
and flooring in one year to replace pipes, knowing that the 
following year all that money spent on the tearing-out process 
would need to be completed again to replace air conditioning 
the following year? It makes absolutely no sense.
    Now, the perspective I bring is that of the persons most 
affected by whatever decisions are made. Perhaps it sounds 
political to even say the words ``spending'' and 
``investments'' in the present political environment, but any 
sound economist or responsible businessperson knows that there 
is a difference between the two, and that capital improvements 
in the Baltimore courthouse constitute an investment. That 
investment is absolutely necessary and in the long run it will 
generate untold dividends.
    Thank you again, Senator, for listening to me today, and 
particularly for your commitment to assuring that Baltimore has 
the wonderful courthouse it deserves.
    [The prepared statement of Judge Motz follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Cardin. Thank you very much, Judge Motz.
    Mr. Fowler.

 STATEMENT OF KIRBY FOWLER, PRESIDENT, DOWNTOWN PARTNERSHIP OF 
                        BALTIMORE, INC.

    Mr. Fowler. Good afternoon. It is my pleasure to be here 
before this Senate committee today. I'd like to thank Senator 
Cardin for this privilege. We've been very grateful for the 
extraordinary support that you've shown downtown Baltimore 
throughout your distinguished career. Thank you very much.
    On a personal note, I'd like to advise the group here that 
the reason I came to Baltimore 20 years ago is to work in this 
very building. I came to work for Chief Judge Walter E. Black, 
Jr., and it was two of the best years of my life. I have very 
fond memories of that experience, but very few fond memories of 
this building. I think Baltimore deserves better.
    To reiterate, my name is Kirby Fowler, president of the 
Downtown Partnership of Baltimore, an independent nonprofit 
organization charged with continuing the renaissance of 
downtown Baltimore. From our daily work tracking the growth of 
downtown, we know that the Federal courthouse is one of our 
most critical assets.
    The U.S. Government has long recognized the importance of 
Federal facilities within the community, and in particular has 
invested in modernizing or replacing courthouses across the 
country. In cities such as San Francisco, Boston, Denver, and 
Syracuse, new and redesigned Federal properties are dynamic, 
multi-use destinations that include libraries, public event 
space, gardens, and even cafes and public markets. These 
improved properties are cornerstones of their communities.
    The Federal courthouse in downtown Baltimore is incredibly 
important to the downtown economy. A substantial number of law 
firms, government agencies, and court-related businesses are 
located in the heart of downtown in large part due to the 
location of this Federal courthouse. On a daily basis, people 
have business in the Federal courthouse, which spills over into 
additional revenue for restaurants, retailers, even parking 
garage operators.
    Downtown Baltimore is a tremendous location for the court. 
We rank fifteenth in the country for employment density and 
last year, even as the effects of the recession lingered, 
downtown Baltimore added 6,700 jobs, the sixth best rate of 
increase in the country. This growth has occurred throughout 
downtown, from the west side to city center, from the Inner 
Harbor to Harbor East. Downtown also ranks eighth in the 
country for population density, with some of the best-educated 
residents in the Nation. Downtown is also the most transit-
connected district in the region.
    For all its positive attributes, the Federal courthouse 
suffers from a fortress-like, single-use design that minimizes 
its relevance to the employees and residents who work and live 
downtown. Millions of people pass this building every year, but 
the nondescript architecture does little to communicate the 
important judicial business happening here on a daily basis. 
Despite the many people who use the courthouse each day, its 
design seals it off from the street and creates a dead zone in 
the middle of a vital part of our city. I share Senator 
Cardin's belief that this does not have to be the case. The 
Federal courthouse in Baltimore can become an even more 
important asset.
    The Downtown Partnership is charged with creating an 
economic vitality in the heart of our city. Earlier this month 
we were joined by Governor O'Malley and Baltimore Mayor 
Stephanie Rawlings-Blake to release a strategic plan for 
downtown Baltimore, a major component of which is a detailed 
open space improvement plan. Under the plan, our goal for every 
property in downtown is to create multi-use destinations that 
add visual as well as economic vitality.
    Locations exist within mere blocks of the current 
courthouse that could accommodate a new Federal courthouse. For 
example, Baltimore is in the early stages of planning a new 
arena building. The site of the current arena would make an 
ideal location for a new courthouse, in conjunction with a 
large new green space to be enjoyed by employees, visitors, and 
residents. We would encourage the Federal Government to 
consider a signature tall building to allow for much-needed 
open space and perhaps do that in conjunction with a private 
sector partner.
    If renovations to the existing courthouse are preferable, 
the opportunity is here to completely re-envision how the 
building interacts with the surrounding neighborhood. Changes 
continue to come to Pratt Street, our city's grand boulevard, 
as a result of our Pratt Street master plan, which was adopted 
by the city in 2008. A redesigned and reoriented courthouse 
could serve as a linchpin for greater improvements to the 
street.
    Downtown Partnership has worked closely with Federal 
agencies, such as the General Services Administration, in 
programming events, cleaning and maintaining the areas around 
Federal buildings and improving the way downtown looks and 
feels for everyone doing business with Federal agencies. I 
sincerely hope that we may continue to work in partnership with 
the Federal Government to help improve its facilities in 
downtown Baltimore, and I thank you for your time and 
consideration and your leadership on this issue.
    [The prepared statement of Mr. Fowler follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Cardin. Thank you, Mr. Fowler.
    Mr. Monk.

    STATEMENT OF CHARLES O. MONK II, ESQ., CHAIR, BOARD OF 
             DIRECTORS, GREATER BALTIMORE COMMITTEE

    Mr. Monk. Good afternoon, Senator. I guess I want to begin 
by saying that, since I am a lawyer and I practice law in this 
courthouse, I don't think there is anyone that does practice 
law in this courthouse that doesn't have a story as Mr. Fowler 
related about this courthouse and about its experiences with 
the difficulties of this courthouse.
    But I'm here today as the Chairman of the Greater Baltimore 
Committee, and it's my privilege to speak on behalf of this 
regional business organization that has been serving Baltimore 
and central Maryland for more than 50 years. We have a long 
tradition of working with government to find solutions to 
problems that affect our region's competitiveness and economic 
vitality.
    Let me respectfully suggest that it is long past time for 
Baltimore to have a new Federal courthouse. The existing 
structure is not only plagued with the security problems that 
you've heard about and frequent general maintenance issues, 
such as the fact that this very ceremonial courtroom was closed 
because of water intrusion, but, more importantly, it does not 
adequately represent the role of the Federal Judiciary as the 
third branch of our government.
    Candidly, the building has all the charm of an uninspiring, 
poorly designed, class B office building. Its entrance is 
turned away from Baltimore's premier business thoroughfare, 
which is Pratt Street. It has a breezeway which must be closed 
off for security reasons, that has been a nuisance since the 
building was constructed. More importantly, the construction of 
this building raises serious security concerns because it's 
similar to the ill--fated Alfred P. Murrah Courthouse in 
Oklahoma City.
    From an economic development perspective, there are several 
opportunities to replace this courthouse in the heart of the 
west side of Baltimore, which will not only provide the United 
States District Court with the dignified building that it 
deserves, but at the same time create a significant opportunity 
for economic development and the creation of jobs and growth in 
Baltimore.
    In that regard, I disagree with Judge Motz, and I do so 
with some trepidation. I have learned long ago not to disagree 
with His Honor. We understand the importance of controlling 
costs in these economic times. But at the same time, the 
Greater Baltimore Committee would encourage this committee in 
its priority-setting role to recognize the significant security 
risks and other deficiencies presented by this courthouse that 
compel consideration of relocation.
    In recent months, the GBC has been working with State and 
city leaders, and we particularly appreciate the support of 
Mayor Rawlings-Blake in this regard, to relocate the existing 
Baltimore Arena to the site of the existing Baltimore City 
Convention Center. The project would not only bring a state-of-
the-art arena to our downtown, but would redevelop and expand 
the convention center and establish a new, larger convention 
center hotel.
    We are not here to discuss that exciting new project, but 
rather to suggest that that project creates a unique 
opportunity. The development of the arena-convention center 
project would create a unique space in downtown to establish a 
new Federal courthouse on the existing arena property, which is 
a large, double-lot, double-block tract which is owned by the 
city. It would serve appropriately as a Federal courthouse and 
create the necessary space for security that is a GSA 
requirement.
    We would be pleased to work in a public-private partnership 
to develop a new Federal courthouse at that location. We are 
aware that there are developers who are interested in 
participating in such a project. We believe this could be done 
in a manner consistent with the objectives of the Downtown 
Partnership, which recently released its excellent strategic 
plan for downtown Baltimore.
    Thank you for your attention and I would be happy to answer 
any questions that you may have.
    [The prepared statement of Mr. Monk follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Cardin. Thank you very much, Mr. Monk, and thank 
you all, all four of you, for your testimony.
    Judge Motz, first of all I want to go over the numbers 
here, because I think they're kind of telling. We have an 
estimate from GSA dated July 14 of last year for the cost of 
just two of the problems confronting the courthouse here, the 
Garmatz Courthouse: one dealing with the heating and air 
conditioning, plumbing, which they estimate at $18 million; and 
the other dealing with the construction issues of the blast 
windows and structural security improvements, that they 
estimate is $56 million.
    That's $74 million for just those two modifications. It 
doesn't deal with the entrance change that you were talking 
about on Pratt Street, doesn't deal with new courtrooms in the 
building, doesn't deal with renovating any of the existing 
courtrooms that are in the building. If you start adding all 
that up, you see that you're going to be easily within $100 
million, if not more.
    A new courthouse, we hear different costs. A lot depends on 
land and things like that. But when it was on the books in the 
mid, around 2005, 2006, they estimated construction costs for 
2008 to be $143 million.
    So I'm just getting to the dollars here. It seems to me you 
reach a point that the economics tells you that you can't fix 
this building in an economic way. I couldn't agree with you 
more. Are we going to get in this budget climate $200 million 
set aside for a courthouse in Baltimore? The answer is no. 
That's clear in this current economic environment.
    But are we going to get $100 million set aside for the type 
of improvements you're talking about? The answer today right 
now is now. So I think we've got to look for a better way of 
trying to figure out how we can finance an adequate courthouse 
here in Baltimore.
    I listened very carefully to all four of your testimonies 
and I think we have agreement here, and I strongly support it, 
that if there is a replacement courthouse, it needs to be 
located in downtown Baltimore. We're in agreement on that?
    I see everybody nodding on that.
    Mayor Rawlings-Blake. Yes.
    Judge Motz. Yes.
    Mr. Fowler. Yes.
    Mr. Monk. Yes.
    Senator Cardin. It's interesting that you all deal with the 
issue of the courthouse being compatible to the development of 
Baltimore. Mayor Rawlings-Blake, I agree with you, it would be 
far preferable to have the entrance located on Pratt Street. 
Here's the challenge of doing that. I'm not sure that you're 
going to get support on the appropriate use of Federal funds at 
this time to change an entrance to the courthouse. It's very 
important to us that a building be integrated into the city, 
but I'm not so sure that the Federal Judiciary looks at it as a 
priority area when they're dealing with renovation funds. If it 
was new construction, that would be one thing. But when they're 
looking at renovation funds, whether they would use the 
millions of dollars necessary to refocus the entrance or use 
that to fix the HVAC. That's the challenge I think we confront 
with trying to renovate this building.
    But you're absolutely right. I don't know how many people 
know about the Thurgood Marshall statue or why it's there or 
what its relevancy is.
    So it seems like our best hope is what Mr. Fowler and Mr. 
Monk and you have been talking about, and that is to try to 
find a creative way that there is something special about the 
funding of a Baltimore courthouse that may get the attention of 
the Administrative Office of the Courts and then the Congress 
because of land swaps or other arrangements. I take it from 
your testimony you would be supportive of a creative 
opportunity in that regard?
    Mayor Rawlings-Blake. Absolutely.
    Senator Cardin. Mr. Monk and Mr. Fowler, you both have 
talked about this in somewhat general terms as it relates to 
some of the redevelopment in downtown Baltimore. Neither one of 
you, though, has talked about what this land itself, if the 
courthouse were removed, what would be the likely or the 
possible attraction for a private developer to be able to be 
involved if this land became available?
    Mr. Monk. This is--from the development perspective in 
Baltimore, this particular lot on Pratt Street, especially with 
the redeveloped arena and convention center across the street, 
will be a very special, unique opportunity for any developer. 
Literally, this morning it was announced that Constellation 
Energy and Exelon are thinking about a merger, and one of the 
things that was announced as part of that, that they are 
looking for a place to develop a new LEAD-certified platinum 
wonderful new building for downtown Baltimore as a corporate 
headquarters. It would be an ideal location for such a 
building.
    So I think this location, properly fronted on Pratt Street, 
is a terrific opportunity for development of downtown 
Baltimore. It would give us yet another step on redevelopment 
of the entire west side.
    Mr. Fowler. I remember 3 years ago when I used to be on 
Pratt Street, when conventioneers would leave the convention 
they would go straight to the Inner Harbor, but now they go to 
the Hilton, they go throughout all of Pratt Street. It's become 
a much more attractive street over the past several years.
    Just to give you a sense of the amount that some of these 
lots are being sold at, during the heyday a few years ago the 
McCormick Spice lot at Conway and Light sold for $25 million. 
During auction recently it sold for 11, so that's just a sign 
of the economy. But that's a similar sized site. So there could 
be substantial, perhaps tens of millions of dollars, that could 
come just from the sale of this site.
    Before the recession hit, there was a lot of interest in 
doing buildout of retail along Pratt Street. We're starting to 
get glimmers of that interest again as the economy seems to be 
waking up a little bit. So this is a valuable site for private 
use.
    Senator Cardin. Judge Motz, looking at the numbers again, 
looking at GSA's numbers, lit seems to me that--well, let me 
ask you. What are your highest priorities if GSA said there was 
a limited amount of funds, they can't do it the way you want to 
do it, they can't do it all at one time?
    Judge Motz. Well, after today my highest priority is to fix 
the security problems, because I think I don't see how after a 
public hearing and problems of progressive collapse are going 
to be in the newspapers--as far as I'm concerned, GSA better 
fix that problem tomorrow. That's my highest priority.
    In terms of other priorities, you've got to fix the 
infrastructure. There have been--regardless of what these 
gentlemen say, this courthouse now internally is an attractive 
spot. I don't know whether they've opened their eyes recently. 
But you've got to fix the infrastructure, and that is very 
costly.
    If somebody wants to get us new money to build a new 
courthouse, that's fine. I must say that when people were 
talking about moving the courthouse 10 years ago, it wasn't to 
downtown. It was to Inner Harbor, it was the Harbor East, which 
to me--I was against it because of the very reason that there 
is now consensus on, that that area was going to develop by 
itself and you were betraying the downtown office district, 
because no law firm was going to stay down here when you 
weren't in walking distance of the courthouse.
    So if you get a courthouse down here, you get the arena, 
you can make it attractive, that's fine. But I still think 
realistically $100 million is less than $200 million and I 
really think a new courthouse would cost $250 million. I think 
there's more chance to get $100 million than $250 million, and 
it's got to be done.
    I'm telling you as somebody who looks at things pretty 
conservatively, it makes no sense. Either you raze the building 
and go somewhere else, which is fine, or else you've got to fix 
the infrastructure and the security problems. That is the two 
highest priorities, and one of those two things in my judgment 
has to be done.
    Senator Cardin. Security you rank first. There's been at 
least three other issues that have been raised. That is the air 
conditioning, the plumbing, the electrical.
    Judge Motz. All of that has to be done. It has to be--there 
is no question, if you look at GSA studies about the ductwork 
and you see about--right now, the plumbing, the air 
conditioning, and the electricity need to be fixed and they 
should all be fixed at the same time. There were proposals that 
GSA wouldn't be able to fund this all at once, so you'd tear up 
the building 1 year and then 3 years later you'd come out and 
tear it up again. That makes no sense.
    So if you're going to fix the building, you've got to come 
up with the money to fix it right. This building was not built 
correctly originally, as you well know. I thought your remark 
that you'd much rather have a building from the beginning of 
the century than from 1976 is absolutely right. This was not a 
well-constructed building, and it has got to be fixed. If not, 
and with all respect, the Mitchell Courthouse is beautiful, but 
it has lost--the infrastructure there needs to be fixed and 
there wasn't money to fix it.
    Anybody--anybody's going to tell you that either you raze 
it, which is fine--that's OK--and build a new one, but you've 
got to have the new courthouse built before you leave this one, 
that's for sure, or else you've got to put the money in to fix 
this building up, or else it's really going to deteriorate and 
then you're going to be in very, very bad shape.
    Senator Cardin. I agree with you. Just reality tells me, 
though, if GSA and the Administrative Office of the Courts were 
not willing to make the $74 million investment when they had 
$1.5 billion available to be spent--these studies have been 
done for a long time; they're ready to go; this was ready-to-go 
construction; they could have gotten people there immediately 
working on this work. If they weren't willing to invest that, 
why do we think we have a good chance of getting this money 
now?
    Judge Motz. I would hope you--you would hope Congress would 
give us this money. I can't get the money. I'm the tenant in 
the building. I have absolutely no power to get the money.
    But what we have done is to try to make this courthouse as 
good as it can be, and I think we've done a pretty good job 
limping along. But the fact of the matter is if money--
realistically, if money is going to be put into here for 
infrastructure work or for a new courthouse, whichever it is, 
Congress is going to have to come up with the money. There's 
going to have to be a special appropriation that says that, 
because of the problems with the building, because of the needs 
of the city, because urban areas are important, because of the 
way this building is located, because it's on valuable land and 
as valuable as the arena would be, this might be more valuable, 
that this is an opportunity for political intervention and for 
Congress to fund things appropriately and specifically. That's 
where the money's going to come from.
    Otherwise, as far as I'm concerned--we work with the AO and 
GSA every day to try to get more money, and we haven't been 
able to do it. Felicia is over there nodding her head. I would 
hope, I would hope that somebody would start thinking new 
construction is not the only way to go. Sometimes it is that if 
they're not going to give us new money, give us money to fix 
this courthouse and make it so it opens up on the pedestrian 
thoroughfare. That is good investment of public dollars.
    But I have, frankly, I have no hope.
    Senator Cardin. I'm not disagreeing. In fact, it seems to 
me that you made that point for the last 2 or 3 or 4 or 5 years 
about let's get on with the major improvements that need to be 
made, and there was an opportunity for GSA to do that and they 
said no. That's how I see it.
    So my point is this. You said that if you were a tenant in 
a commercial building you'd withhold your rents, and I agree 
with you you could withhold your rents. These are serious 
enough issues. You don't have that luxury because of the way 
the Federal Government is organized. We like to say that we 
don't want to exempt ourselves from private sector rules, but 
we do, and it's wrong.
    One of the reasons we're holding this hearing is to put a 
spotlight on this. That's intentional, because Baltimore's not 
the only place in the Nation that has a similar problem. There 
is other problems in other parts of the country. I just think a 
mistake was made when the decision was made by the 
Administrative Office of the Courts that they were going to 
fund space needs rather than renovation of buildings and making 
them safe for the people that are in there.
    I'm very serious about at least this Senator's vote on new 
judgeships until we have adequate space for our existing 
judges. I think that needs to be put into the equation. My 
concern is that unless we put a spotlight on the issues that we 
have that we could go another 10 or 15 or 20 years and then 
someone--and I'm not talking about terrorist attacks, but 
someone's going to get hurt because of the conditions of the 
building, and then all of a sudden we try to do things to fix 
it.
    Let's fix it now. I'm not opposed to $100 million being put 
into this Baltimore courthouse to make it look right and have 
it face on Pratt Street. My gut tells me that you're not going 
to get the private sector working with us on that. That's going 
to be solely a Federal Government issue. Here it seems to me 
that we have an opportunity, because of the interest of the 
private sector, that we might be able to put together a 
creative plan, with the Mayor's interest, that will allow us to 
move forward with a new courthouse for Baltimore in a way that 
would be even more economical than trying to patch up this 
existing courthouse, giving the Federal Government a better 
facility and giving downtown Baltimore a Federal courthouse 
that complements the city as well as another valuable piece of 
land that could be used for economic growth for Baltimore's 
future. That seems to me to make the most sense in this 
situation.
    But if we're able to get the renovation moneys necessary 
for this courthouse--I'm going to fight, I know Senator 
Mikulski's going to fight, and our congressional delegation is 
going to fight to make sure this courthouse is safe. So we're 
going to continue to seek the attention of the Administrative 
Office of the Courts.
    We took politics out of this in a way. You have this rating 
system within the Administrative Office of the Courts to 
determine priority of buildings and Congress follows that 
priority list. So in a way this is a fight. We have to get the 
Administrative Office of the Courts and GSA and then Congress 
needs to fund it, so we all have responsibilities.
    What I'm going to do is take the information that's been 
made available at this hearing and share it, obviously, with my 
colleagues on the Environment and Public Works Committee, but 
with my colleagues in the U.S. Senate. I am certain, as has 
been pointed out in this hearing, that there are other cities 
that have similar types of problems, and maybe we'll be able to 
figure out a way that we can move forward with the type of 
space for our Judiciary which is appropriate to the important 
role that they play.
    With that, let me again thank our four witnesses for your 
testimony. I think you added greatly to this hearing. With 
that, the committee will stand adjourned.
    [Whereupon, at 3:30 p.m., the hearing was adjourned.]

                                 <all>
</pre></body></html>
